<html>
<title> - THE UNITED STATES AND TURKEY: A MODEL PARTNERSHIP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     THE UNITED STATES AND TURKEY:
                          A MODEL PARTNERSHIP

=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON EUROPE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2009

                               __________

                           Serial No. 111-16

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
49-711                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9bea9b699baacaaadb1bcb5a9f7bab6b4f7">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                         Subcommittee on Europe

                    ROBERT WEXLER, Florida, Chairman
JOHN S. TANNER, Tennessee            ELTON GALLEGLY, California
BILL DELAHUNT, Massachusetts         GUS BILIRAKIS, Florida
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
MICHAEL E. McMAHON, New York         TED POE, Texas
SHELLEY BERKLEY, Nevada              JOHN BOOZMAN, Arkansas
BRAD MILLER, North Carolina          BOB INGLIS, South Carolina
DAVID SCOTT, Georgia                 J. GRESHAM BARRETT, South Carolina
JIM COSTA, California
               Jonathan Katz, Subcommittee Staff Director
          Joshua Rogin, Subcommittee Professional Staff Member
          Richard Mereu, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ian Lesser, Ph.D., Senior Transatlantic Fellow, The German 
  Marshall Fund of the United States.............................     7
Mr. David L. Phillips, Senior Fellow, The Atlantic Council of the 
  United States (Visiting Scholar, Center for the Study of Human 
  Rights, Columbia University)...................................    18
Stephen Flanagan, Ph.D., Senior Vice President and Henry A. 
  Kissinger Chair, Center for Strategic and International Studies    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Wexler, a Representative in Congress from 
  the State of Florida, and Chairman, Subcommittee on Europe: 
  Prepared statement.............................................     3
Ian Lesser, Ph.D.: Prepared statement............................    10
Mr. David L. Phillips: Prepared statement........................    20
Stephen Flanagan, Ph.D.: Prepared statement......................    31
The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California: Prepared statement....................    41

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Jim Costa, a Representative in Congress from the 
  State of California: Submitted questions.......................    56
Ian Lesser, Ph.D.: Response to the Honorable Jim Costa's 
  questions......................................................    57
Mr. David L. Phillips: Response to the Honorable Jim Costa's 
  questions......................................................    59
The Honorable Joe Wilson, a Representative in Congress from the 
  State of South Carolina: Submitted questions...................    60
Ian Lesser, Ph.D.: Response to the Honorable Joe Wilson's 
  questions......................................................    61
Mr. David L. Phillips: Response to the Honorable Joe Wilson's 
  questions......................................................    63


           THE UNITED STATES AND TURKEY: A MODEL PARTNERSHIP

                              ----------                              


                         THURSDAY, MAY 14, 2009

                  House of Representatives,
                            Subcommittee on Europe,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:19 a.m. in 
room 2172, Rayburn House Office Building, the Honorable Robert 
Wexler (chairman of the subcommittee) presiding.
    Mr. Wexler. Good morning. The Europe Subcommittee will come 
to order. I very much apologize for the distorted schedule. 
Democracy, unfortunately, can be inconvenient at times, but I 
very much want to express my gratitude to our witnesses for 
testifying today.
    Today's hearing, ``The United States and Turkey: A Model 
Partnership,'' is being held just 1 month after President 
Obama's historic visit to Turkey where he addressed the Turkish 
people and Parliament and stated clearly that his 
administration was prepared to renew the alliance between our 
nations and the friendship between our peoples.
    President Obama's trip to Turkey laid the foundation for 
enhanced American and Turkish cooperation and dramatically 
changed the playing field for increased United States-Turkish 
collaboration in the economic, military, and political spheres. 
This cooperation is essential to both nations as we face a 
global financial crisis and are grappling with serious security 
challenges in Afghanistan, Iraq, Iran, the Balkans, Black Sea 
and the Caucasus regions, and the Middle East.
    Turkey is the world's seventeenth largest economy, a geo-
strategic NATO ally, a member of the G-20 and a non-permanent 
member of the United Nations Security Council. It is 
strategically suited, alongside the United States to meet the 
threats of the 21st century, including nuclear proliferation, 
countering terrorism, energy security and Middle East peace.
    United States-Turkish cooperation and coordination in both 
Afghanistan and Iraq continues to grow. Since 2002, Turkey has 
played a leading role in providing humanitarian, economic, 
military, and security assistance in Afghanistan, has led the 
International Security Assistance Forces in Kabul on two 
occasions, and recently hosted a trilateral summit meeting with 
the Presidents of Afghanistan and Pakistan. Turkey has also 
played a positive role in efforts to stabilize Iraq through its 
role in the trilateral Iraq--Turkey--U.S. Commission. Turkey's 
air base at Incirlik in the Harbor Border Gate has been 
critical to American military operations and logistics in Iraq.
    As the Obama administration finalizes its withdrawal plans 
for Iraq, it is clear that Turkey can play a central role in 
the administration's plans to withdraw American troops safely, 
effectively and securely, and will continue to be a leading 
partner in Iraq's future political, economic and security 
success.
    There are few issues that weigh more heavily on the minds 
of the Turkish people than the unconscionable death and 
destruction caused over the past several decades by PKK 
terrorists. I applaud President Obama's effort to maintain 
security assistance to the Turkish Government as it combats the 
PKK.
    Today's hearing also comes on the heels of a much 
anticipated April 22 announcement by the Turkish and Armenian 
Governments that they have agreed on a comprehensive framework 
for the normalization of their bilateral relations. This 
diplomatic effort deserves the highest level of support from 
the United States and the international community, and I urge 
my colleagues in Congress to join all of the parties in 
supporting these governments as they seek to establish 
diplomatic, political and economic relations. This effort is no 
small feat, and both governments deserve our full support as 
they take politically charged decisions.
    I look forward to hearing from our witnesses who will 
provide insight into United States-Turkish relations, and offer 
their suggestions on how we can create and build a model United 
States-Turkish partnership that will benefit both nations for 
generations to come.
    I would ordinarily turn to the ranking member, Elton 
Gallegly, but I think he may be here a little bit later. I 
would like to turn to Mr. Scott if he has any opening remarks, 
and then Mr. McMahon if he does as well.
    [The prepared statement of Mr. Wexler 
follows:]<greek-l>Wexler statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. Chairman, and I want to 
congratulate you and thank you for holding this very, very 
important hearing. It is a pleasure to join you with you on the 
Europe Subcommittee for this Congress and I look forward to 
working with you.
    I really can't think of a more important and timely hearing 
than that of Turkey. There is no more vital relationship that 
the United States has in this world, quite honestly, than with 
Turkey, and that is important because strategically, 
geographically, as well as geo-politically it is indeed at the 
crossroads of the world, sitting right at Asia, Europe and the 
Middle East, and it is seen as certainly the gateway of the 
Islamic world, but certainly is rich in the heritage and 
tradition of the foundation of Christianity as well.
    Indeed, the United States has engaged Turkey as a strategic 
partner in its operations in both regions, in both Iraq and 
Afghanistan, as well as elsewhere. However, Turkey's role with 
respect to Europe will continue to grow in the near and long 
term, especially as Europe looks to address its energy security 
issues. There are certainly challenges that remain in the 
United States and Turkey relationship. However, I am certain 
that these challenges can and will be overcome.
    I am interested to hear our panelists' perspective on these 
challenges, and I hope that they will also comment where our 
future opportunities lie. I have visited Turkey on many 
occasions. My last visit took me through Istanbul, Ankara, and 
even into Tarsus. It is a fascinating, fascinating and 
beautiful, beautiful country with some wonderful, wonderful 
people.
    During his speech before the Turkish Parliament, President 
Obama reiterated the United States' commitment to partnering 
with Turkey, and I certainly share his sentiments.
    In my participation as a member of the NATO Parliamentary 
Assembly, and in my repeated visits to Turkey, and I met with 
many of our colleagues from this nation, including the 
President, Prime Minister and others, and I am certain and 
convinced that the leadership of Turkey share the commitment to 
building our relationship in a more positive way as well.
    So once again, Mr. Chairman, I thank you for holding this 
hearing. I look forward to more closely examining the 
cooperation between our two nations, and discussing in detail 
how we can continue to build a much stronger relationship.
    I yield back, and thank you.
    Mr. Wexler. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. Thank you for 
convening this very important hearing.
    Turkey, like the Turkey, contains an incredible fusion of 
cultures which inevitably has created many similarities between 
our two countries. The shared values of diversity, 
distinctiveness in democracy enable the United States and 
Turkey to have not only a mutual partnership, but an evolving 
relationship that goes stronger through time.
    Turkey has served as a mediator in numerous controversial 
conflicts throughout the world even when criticized. Through 
Turkey's promotion of dialogue on shared concerns about 
terrorism, proliferation, and regional stability, the United 
States has seen the various facets of numerous countries in the 
Middle East and which certainly has added to our national 
security here at home.
    In recent years, Turkey seems to have opened itself up to 
the rest of the world further through its negotiations with 
Armenia, as mentioned by the chairman. My hope is that Turkey 
will continue on this direction and re-evaluate is current 
position in the Republic of Cyprus as well. I encourage such a 
move by Turkey as it will clear the way for Turkey's well-
deserved place in the European Union.
    Once again I would like to emphasize my respect and 
admiration for Turkey and hope that the panel can shed some 
light on the situation in Northern Cyprus and Turkey's 
prospects of joining the EU as well.
    Thank you again, Chairman Wexler. I yield the remainder of 
my time.
    Mr. Wexler. Thank you, gentlemen. As you can see they 
started another vote. My understanding is it is this vote and 
then one more, and then we will run back here. I do not in any 
way want to cut you short, so I think it would be best if we 
would stop now, we go vote, and then come back. I thank you 
again for your patience. Take care. Thanks.
    [Recess.]
    Mr. Wexler. I would like to call the Europe Subcommittee 
back into session, and would like now to introduce our 
witnesses for today's hearing.
    Our first witness is Dr. Ian Lesser, senior Transatlantic 
fellow at The German Marshall Fund of the United States in 
Washington where he focuses on Mediterranean affairs, Turkey 
and international security issues. Prior to joining GMF, Dr. 
Lesser led a major study of United States-Turkish relations as 
a public policy scholar at the Woodrow Wilson Center. From 2002 
to 2005, Dr. Lesser was vice president and director of studies 
at the Pacific Council on International Policy. Prior to this 
he spent over a decade as a senior analyst with RAND 
Corporation, and from 1994 to 1995, he was a member of the 
Secretary's policy planning staff at the U.S. Department of 
State responsible for Turkey, Southern Europe, North Africa, 
and the multilateral track of the Middle East peace process.
    Dr. Lesser is a prolific writer and commentator on 
international security issues, and we are thrilled that he is 
joining us.
    Our second witness is David Phillips, senior fellow at The 
Atlantic Council of the United States, and visiting scholar 
with the Center for the Study of Human Rights at Columbia 
University, School of International and Public Affairs. He also 
holds positions at New York University and the National 
Committee on American Foreign Policy.
    Prior to assuming these roles, he was also executive 
director at the Elie Wiesel Foundation for Humanity; visiting 
scholar at Harvard University, Center for Middle East Studies; 
scholar-in-residence at American University, Center for Global 
Peace; and senior fellow at the Council of Foreign Relations.
    Oh, Lord, another vote?
    Prior to these, Mr. Phillips worked for the U.S. Department 
of State as a foreign affairs expert with the Bureau for Near 
Eastern Affairs in 2003, and as senior advisor for democracy 
and regional stability with the Bureau for European and 
Canadian Affairs. In 2005, Mr. Phillips authored a book on 
Armenian reconciliation and another on Iraq reconstruction, and 
in 2008, authored a book on democratization and Islam, and most 
importantly, his father is a very prominent constituent of 
mine.
    Our third witness is Dr. Stephen Flanagan, senior vice 
president and Henry A. Kissinger Chair at the Center for 
Strategic and International Studies in Washington, where the 
past year he has directed the U.S.-Turkey Strategic Initiative. 
Mr. Flanagan is the co-author of a recently released report, 
``Turkey's Evolving Dynamics: Strategic Choices for U.S.-Turkey 
Relations.''
    Before joining CSIS, he served as director of the Institute 
for National Strategic Studies and vice president for research 
at the National Defense University. Dr. Flanagan has also held 
several senior positions in the U.S. Government, including 
special assistant to the President and senior director for 
Central and Eastern Europe at the National Security Council, 
national intelligence officer for Europe, and associate 
director and member of the State Department's policy and 
planning staff.
    We would respectfully request that the witnesses limit 
their opening statements to no more than 5 minutes, and now I 
will turn to Dr. Lesser for his opening remarks. Please.

 STATEMENT OF IAN LESSER, PH.D., SENIOR TRANSATLANTIC FELLOW, 
         THE GERMAN MARSHALL FUND OF THE UNITED STATES

    Mr. Lesser. Mr. Chairman, thank you very much for the 
opportunity to be with you here today to share some thoughts 
about the state of United States-Turkish relations, in 
particular, after the President's visit and some next steps.
    With your permission, I will offer a brief summary of my 
testimony. Let me also stress that these are my views and not 
those of The German Marshall Fund of the United States.
    In my view, Mr. Chairman, we face three parallel challenges 
in managing United States-Turkish relations. First, we need to 
repair a very badly eroded set of perceptions of the United 
States among the Turkish public, and also among Turkish 
policymakers. This is important for many reasons, but it is 
important not least because public opinion actually counts in 
today's Turkey. It is very difficult to do things when public 
opinion is opposed. As polling by my organization, The German 
Marshall Fund, and others, has suggested the last years have 
been very, very difficult in terms of public diplomacy in 
Turkey.
    I think President Obama's visit made a very, very good 
start in repairing this problem. I think it was a success by 
almost any measure. It was very well received even though the 
President addressed some tough issues, and we went from single 
digits in terms of public attitudes toward the United States--
positive attitudes toward the United States--to, recent polling 
suggests, maybe 50 percent positive attitudes. That is a big 
change.
    It also, I think, made a start on repairing our reputation 
among the Turkish leadership across the political spectrum, 
which was also very, very badly damaged. So the task now, I 
would say, is how we build on this opening in public diplomacy 
to improve policy coordination, and that is my second point, 
the second challenge.
    I think in the near-term we face a series of specific 
policy challenges with Ankara. These are really problems of 
coordination. Turks and Americans would probably produce--do 
produce--the same agenda in terms of what we should be talking 
about. The problem is we have some different priorities in key 
areas, and we need to work on these.
    On Iraq, we certainly need to reenforce our cooperation in 
fighting the PKK, but we also need to make sure that Turkey is 
on board in terms of supporting our disengagement from Iraq, 
including predictable access to Incirlik airbase over the 
coming years. That has always been a problem. It will continue 
to be a problem. We need to work on that.
    On Iran, Turkey is very interested in seeing a United 
States-Iranian strategic dialogue. They have no interest in 
seeing the emergency of a nuclear Iran, but on the other hand 
we will have a key stake in making sure Ankara delivers tough 
messages to Tehran on that score.
    On Turkey and the European Union, I think the President 
rightly stressed our support for Turkey's EU candidacy when he 
was in Turkey, but we need to rethink how we make the case, Mr. 
Chairman, in the face of European ambivalence. This has not 
been an easy case to make. You can't just make the same simple 
straightforward geo-political arguments that we made some years 
ago. We have to go beyond that. I think it is very important 
that this visit to Turkey came as part of a European tour 
rather than Middle Eastern one.
    On NATO, let me mention this. I think we have a looming 
challenge in relations with Turkey on NATO. NATO has a 
strategic concept debate that is just starting. Turkey will 
have some very specific requirements in that regard because 
many of the contingencies that NATO will face in the future 
will be on Turkey's borders. I think that is another area where 
we can have a more explicit policy discussion.
    Third, and finally, I think we need to keep our eyes on 
some longer term developments that will influence what our 
relationship with Turkey can look like in the future. Let me 
just mention two.
    The first is what happens in Turkey domestically. When we 
talk about Turkey as a model partner, I think what is 
significant about that is what is not there rather than what 
is. What is not there is the idea that we can somehow shape 
internal Turkish politics and society, to see Turkey as a model 
in terms of its internal evolution. I think we ought to be 
focusing rightly, that is where we have put the focus now, on 
the strategic relationship with Turkey and how we coordinate 
our external policies.
    I do not believe we are losing Turkey in any way, but there 
is no question that Turkey has some new priorities and Turkish 
society has moved in ways in which will make the relationship 
different. We need to take advantage of that.
    Secondly, and finally, on the global economic crisis--
Turkey is being badly affected by this now. Turkey's 
neighborhood, especially in the Balkans and elsewhere, can be 
destabilized by the crisis. I think it is also going to 
complicate something that we need to keep our eye on finally 
which we have had a very security-heavy relationship with 
Turkey over the years. That is a given in a sense, but we need 
to work on diversifying it--the economic side, the cultural 
side. Americans do not know enough about Turkey and we need to 
fix that. The economic crisis makes that a more challenging 
task, but I think we can get beyond it.
    So to conclude, Mr. Chairman, I think we are now on a much 
more positive path in relations with Turkey. We need to build 
on this public diplomacy success, recalibrate the relationship 
and build a broader constituency for relationships on both 
sides.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Lesser follows:]<greek-l>Ian 
Lesser deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. Thank you. Mr. Phillips, please.

STATEMENT OF MR. DAVID L. PHILLIPS, SENIOR FELLOW, THE ATLANTIC 
COUNCIL OF THE UNITED STATES (VISITING SCHOLAR, CENTER FOR THE 
          STUDY OF HUMAN RIGHTS, COLUMBIA UNIVERSITY)

    Mr. Phillips. Thank you, Mr. Chairman. Thanks for inviting 
me to present before the subcommittee today. I associate myself 
fully with all of the remarks earlier that you made about the 
strategic importance of Turkey, so let me just turn myself to 
the task at hand, which is to address the matter of Turkish-
Armenian relations. I will refer to my work in the past as 
chairman of the Turkish Army and Reconciliation Commission, and 
focus on the announced agreement of April 22, try to critique 
it, and talk about some pitfalls going forward.
    United States-Turkey relations are impacted by what happens 
between Turkey and Armenia. Reconciliation between Turks and 
Armenians is important. It is also extremely difficult and 
sensitive. These difficulties are exacerbated by taboos and 
deeply divergent historical narratives.
    While Turkey is vitally important to the United States, the 
United States also has an important relationship with Armenia. 
Both Turkey and Armenia are allies of the United States. Both 
contribute to efforts countering global extremism. Armenia has 
uniquely good relations with both the United States and Russia. 
The framework agreement and the roadmap that was announced on 
April 22 for normalizing relations is potentially an historic 
breakthrough, but we need to measure progress not by words but 
by actions.
    With the help of United States mediation, a finalized text 
was initialed by Turkish and Armenian officials on April 2. 
There is a protocol on recognition and one on normalization. It 
also creates some subcommissions and provides a timetable for 
implementation. The full text has not been released. There has 
been a lot of speculation as to the reason for that. Getting 
from initials to signatures and then to implementation is going 
to be torturous. The longer it takes, the harder it gets.
    My question is does anyone believe that the AKP government 
will go forward implementing the agreement without progress on 
the Nagorno-Karabakh?
    Last Friday President Gul said the normalization would 
proceed without preconditions. The next day Tayyip Erdogan said 
that Turkey ``could open its border of Armenia lifts its 
occupation of Nagorno-Karabakh.''
    When President Obama met with Turkish and Armenian 
officials in Istanbul on April 7, he was assured that there 
were no preconditions to the agreement. As a practical matter, 
however, Nagorno-Karabakh is a deal-breaker.
    There is a strong Azeri lobby that opposes normalization of 
Turkish-Armenian relations. President Ilham Aliyev has been 
active in criticizing the agreement, though there has been some 
progress on core basic idea on NK. The same deal there has been 
on the table with the Minsk group since 2007. There has not 
been any progress over the past 17 years.
    Turkey's national interests cannot be held hostage by 
Azerbaijan. The United States should reaffirm President Obama's 
understanding that there is no linkage between normalizing 
Turkey-Armenian relations and the Minsk Group process.
    If the agreement is actually moved from initials to 
signatures, what are the chances that the Turkish Parliament 
will actually approve it? The AKP has failed to muster votes on 
important initiatives in the past, which we need to recall. 
And, why did it take so long to announce the agreement that was 
initiated on April 2? Critics maintain that announcing it on 
the eve of Armenian Remembrance Day Genocide was just a cynical 
effort to dissuade President Obama from characterizing the 
events as ``genocide.''
    The timing raises serious questions about Turkey's resolve 
and self-confidence. It has also rallied opposition. The 
Dashnaktsutyuns have pulled out of the coalition government. 
Former President Ter-Petrossian called it the deal a ``sell-
out.'' Just as there should be no linkage between normalization 
and Nagorno-Karabakh, there must be no linkage between 
normalization and genocide recognition.
    Normalization is forward looking. However, reconciliation 
is a process, not an event. There is an abundance of track two 
activities involving civil society, many of which were 
initiated by TARC. One way to support track two would be to 
create a fund so that civil society groups could apply jointly 
for financing. This could be done in the memory of Hrant Dink, 
the ethnic Armenian editor who was assassinated.
    I also want to refer you to the findings of the legal 
analysis by TARC which determined that the Genocide Convention 
cannot be applied retroactively. Turkey has no risk of 
liability under the convention. At the same time it looked at 
the definition of genocide, and determined that had the 
convention been in force at the time of the events, that those 
events would have met the definition of genocide, and therefore 
scholars and others would write and would be correct in 
referring to those events as genocide.
    There needs to be a historical process. However, the 
commission that is proposed is likely to polarize rather than 
foster consensus. I have some recommendations on this matter 
that are elaborated in my full testimony. I hope that we can 
get into it during the question period.
    I am also happy to talk about Turkey and Iraqi Kurd 
relations as I am heading a high-level study group on that 
subject as well.
    [The prepared statement of Mr. Phillips 
follows:]<greek-l>David Phillips deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. Thank you very much. <greek-l>Mr. Flanagan, 
deg.Dr. Flanagan.

STATEMENT OF STEPHEN FLANAGAN, PH.D., SENIOR VICE PRESIDENT AND 
      HENRY A. KISSINGER CHAIR, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Flanagan. Thank you, Mr. Chairman. It is a pleasure to 
be here before you today to discuss the development of 
relations between the United States and Turkey during the Obama 
administration, and how the Congress can play a role in 
building this relationship into the model partnership that the 
President envisions.
    With your permission, Mr. Chairman, I would like to 
summarize my full statement for the record and just offer, 
first of all, some perspectives on what the elements of this 
partnership might be, and also what some of the key 
opportunities and challenges are to its realization. My 
comments, as you noted, draw on a report, a year-long effort 
that colleagues and I at the Center for Strategic and 
International Studies developed. It is a comprehensive 
assessment of Turkey's changing internal dynamics and its 
relations with all of its neighbors, and we advance some policy 
recommendations and ideas for enhancing the bilateral 
relationship and multilateral cooperation. While I draw on this 
report my views today are my own.
    Mr. Chairman, our key conclusion was very much in keeping 
with your opening remarks about the idea that United States-
Turkish strategic interests remain largely convergent. However, 
mistrust and suspicion in recent years, much of it related to 
the war in Iraq and its aftermath, have clouded this 
convergence and complicated cooperation.
    President Obama's very successful trip to Turkey last month 
recognized the importance of the relationship and established 
the foundation for restoring the trust and confidence essential 
to orchestrating effective cooperation on mutual, regional and 
global interests.
    That said, differing political and geo-strategic situations 
of our two countries will on occasion lead Turkey and the 
United States to pursue distinct and sometimes divergent 
policies that could cause disruptive disagreements that would 
once again undermine the pursuit of these over-arching 
interests.
    So, realizing President Obama's vision of a model 
partnership will require a sustained engagement and careful 
management by senior levels of both governments, and I think 
Congress can play a very valuable supporting role in this 
effort.
    President Obama's speech to the Grand National Assembly in 
Turkey articulated a positive and realistic agenda for 
strategic cooperation with Turkey in the coming years, and it 
also encouraged the pursuit of Turkish internal reforms and 
foreign policy initiatives that could both enhance bilateral 
partnership and advance Turkey's bid for EU membership. This 
agenda builds on the shared vision and structured dialogue that 
was developed actually at the end of the Bush administration, 
in 2006, and reaffirmed by Secretary Clinton during her visit 
to Ankara. I think this was a wise move because that process 
did yield some valuable benefits.
    In my view, this agenda, the partnership, breaks down into 
three sets of issues of ascending degree of difficulty, you 
could say. The main elements, the leading elements of this 
positive agenda, I think, should be our areas where the two 
countries have very clearly convergent interests and a general 
agreement on the requisite policy approaches. These include: 
Long-term stabilization and development of Iraq, Afghanistan 
and Pakistan; expansion of bilateral trade and investment; 
military-to-military cooperation; and promotion of Turkey's EU 
membership.
    There is a second set of issues where the two governments 
broadly have the same assessment but there are still important 
policy differences, and that are sometimes exacerbated by 
difficult domestic political considerations in both countries. 
These include: Relations with Russia, Armenia, and Greece; the 
development of the Southern Corridor Route for Caspian Energy; 
fostering Israeli-Palestinian settlement; and dealing with some 
of the frozen conflicts both in the Caucasus and Cyprus.
    There is a third set of issues where there are really 
fundamental or potentially quite significant policy differences 
that will have to be carefully managed including dealing with 
aspects of Russian assertiveness in the Black Sea and the 
Caucasus; energy and trade relationship with Iran; and also 
dealing with Iran's nuclear program.
    So one of the key points that I would argue, Mr. Chairman, 
is that to ensure the advancement of this broad and very 
complicated agenda it is important that the Obama 
administration work with the Turkish Government to establish a 
regular high-level policy dialogue, and an agenda for joint 
action with time lines to advance specific initiatives 
supported perhaps by bilateral working groups charged with 
monitoring the implementation.
    This is a structure that has been pursued to advance U.S. 
relations with a number of new and long-time allies. I saw this 
work in aspects of our work with Southeastern Europe in the 
Clinton administration. The United States-Israeli relationship 
has had similar kinds of structures to help manage the 
cooperation, and there are other examples. But I think this is 
the kind of sustained effort that is going to be required.
    Cooperation with the economic development of the 
relationship I think is another one that could be further 
enhanced. The European Union countries and Russia will remain 
Turkey's natural and leading trading partners, but I think 
there could be some efforts undertaken to expand United States-
Turkish trade and investment, and Turkey could be an important 
staging ground for United States investment, including with 
firms partnering with Turkish counterparts to move into new 
markets in the Caucasus and the Greater Middle East.
    Lastly, let me just say a few words about things Congress 
could do to play a valuable role. First of all, I think there 
is a scope for a robust smart power initiative<greek-l>s deg. 
to expand person-to-person cultural and educational exchanges 
between the United States and Turkey. Secretary Clinton and 
Former Minister Babacan have initiated a youth exchange in 
their visit in March, but I think Congress should treat Turkey 
as a priority country in some of these areas to expand cultural 
exchanges and to help overcome misunderstanding about the 
United States and Turkey where public opinion has really 
plummeted in recent years.
    I think also mutual understanding between our two 
legislatures, and here I know that with the busy schedule you 
all lead there is reluctance to take on new commitments like 
this, but I do think some more formal and regular exchanges 
with the Turkish Grand National Assembly and the U.S. Congress 
would be helpful to understanding and advancing a depth of 
contacts that give substance to this alliance.
    Lastly, with all due respect to the many co-sponsors of H. 
Res. 252, rather than seek to legislate history, I think 
Congress and the administration should continue to provide 
encouragement as you said yourself, Mr. Chairman, to the 
efforts by the Government of Turkey and Armenia to realize this 
framework and roadmap for normalization of their relations, and 
to this framework that was agreed last month and which 
obviously faces a number of impediments, but I do think that 
this process can move forward, and I think also over time the 
creation of a joint historical commission could be very helpful 
to continue to help Turkey come to grips with this legacy of 
its past, and also to promote further understanding of those 
tragic events of 1915.
    So, in closing, Mr. Chairman, I think we have a great 
opportunity here to build on a wider cooperation with Turkey in 
a number of different areas, but it will require a process that 
is carefully managed by the leadership of the two governments. 
So thank you for the opportunity this morning and for your 
attention.
    [The prepared statement of Mr. Flanagan 
follows:]<greek-l>Stephen Flanagan deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wexler. Thank you very much. Thank you to all three 
witnesses for their excellent statements.
    I would like to begin. I have got a number of specific 
questions regarding the obvious topics of the EU, Cyprus, 
energy, and several others. But what I would like to start 
with, if I could, is just to ask you to provide an analysis in 
a more general sense, and what I am referring to is in my last 
trip to Turkey, which was in February, it was in the middle of 
what was inflamed relations between Turkey and Israel, and I 
was struck to a degree by the contrast in that when I arrived 
and talked with the American personnel at the American Embassy 
in Ankara the presentation essentially was that American-
Turkish cooperation was at an all-time high. Whether we were 
talking about the PKK, whether we were talking about Iraq, 
Afghanistan, energy, the potential for engagement between 
Turkey and Armenia, all signs were relatively positive, 
particularly compared to where we were.
    When you get down to the specifics what I find is--
generally speaking, but also when you apply it to the specific 
issues--the objectives and the goals by and large of the 
American Government and the Turkish Government essentially 
match.
    Now in some instances there are tactical differences. The 
one area that I think the tactical difference is most 
significant, possibly, is with respect to how to engage or not 
engage Hamas, how to bolster up the moderate Palestinians, and 
what role the Turkish Government believes it ought to play in 
that process.
    So in that context, I would respectfully ask if maybe you 
could frame an analysis of a Turkey that wants to pursue its 
regional interests. I know there are some in Washington that 
fret that Turkey may wish to do that, but I happen to believe 
that it is in Turkey's interest and in America's interest. If 
we are going to make any progress in the region, it would seem 
to me one of the foundations of that process is that ultimately 
it needs to be Turkey that is influencing Syria, Turkey that is 
influencing Iran, Turkey that is influencing Iraq.
    Now there are some people that fear it is going to be the 
other way around, but I guess I would ask if you could comment 
in that regard, Dr. Lesser, and just go across.
    Mr. Lesser. Mr. Chairman, thank you very much. I think this 
really gets to the heart of it. I think there are a couple of 
things happening which will be evident when you go there and 
you have the kind of conversations that you described. At the 
level between government of coordination on things like the 
PKK, it is not surprising that you would get very positive 
readouts about the state of cooperation because there has been 
a lot of very close cooperation on some of those kinds of 
issues.
    But there are some other things going on. There is public 
opinion, as I say, which counts heavily now, and the AKP 
government is a populist government. It pays a lot of attention 
to this. So on the question of Gaza, for example, or approaches 
to the Middle East peace process, or even the sustainability of 
relations between Turkey and Israel, you know, I do fear that 
there is a certain tension there which you will feel when you 
go and you have these kinds of conversations.
    I think it is also the case that Turkish policymakers 
across the political spectrum are very sovereignty conscious, 
pretty nationalistic regardless of where they fall on this 
secular-religious debate in Turkey. All very nationalistic, I 
think, and therefore all very sensitive to the kind of role 
that we play in the region and whether we are willing to let 
Turkey play a leadership role.
    I think, as you say, there are a lot of advantages to us 
for Turkey playing that active role. Mostly it is a soft power 
role, mostly it is commercial, but this is a different Turkey 
from 10 years ago. It is not necessarily a bad thing for 
American interests, but we need to have a different kind of 
discourse to take advantage of it.
    Iran is a perfect example. This is a Turkish Government 
that is much more comfortable than its predecessors in going to 
Iran, going to the Gulf, talking to Syria, et cetera. How do we 
make sure that Turkey's relations with NATO and the European 
Union, and with us, still retain their priority in that kind of 
an atmosphere? It is not impossible at all. We are not losing 
Turkey in that sense, but I think it requires a different kind 
of discourse.
    The final point is that this is not a new problem. There is 
a tendency to talk in terms of Golden Ages and lost Golden Ages 
and are we entering a new Golden Age with Turkey. I think that 
is in some ways a risky kind of analogy to use because in fact 
even at times when we thought the relation was very, very 
positive, in the late nineties, in the latter part of the 
Clinton administration, for example, it was still very tough 
and very often on some of the same issues. So I think we need 
to be a bit realistic about that, and see where we go, but I 
don't think it is a question of Turkey having drifted off into 
an orientation that we can't work with. I think on Iran and 
some other issues Turkey can indeed be very helpful, Mr. 
Chairman.
    Mr. Wexler. Thank you. Mr. Phillips.
    Mr. Phillips. Well, I for one was shocked by the events in 
Davos. I thought that the conduct of Prime Minister Erdogan was 
rather infantile and reprehensible. My bigger concern is 
whether or not it reveals his true character and the character 
of his government, and I think these are unanswered questions 
that can effect the strategic cooperation between the United 
States and Turkey in a broad range of areas.
    Certainly the Davos incident didn't help Turkey's future 
role in the Middle East. Turkey had been playing a very 
constructive role mediating between Israel and Syria up to that 
point. Questions about Turkey's future role there certainly 
have arisen. Will Turkey be able to play a constructive role in 
comprehensive Middle East peace issues, particularly given the 
new government in Israel? There is real concern amongst the 
Israelis about whether Erdogan is a suitable mediator.
    I think that we also have to ask ourselves the question is 
the AKP actually a Trojan horse for an Islamist agenda in 
Turkey. There has been speculation about that throughout. Other 
than the March 1, 2003, vote barring the passage of the U.S. 
Army's 4th Infantry Division through Turkey to Iraq, Turkey has 
been a predictable and steady ally. What kind of ally is Turkey 
going to be going forward, especially now that Turkey is 
focusing more on a Eurasia strategy that diminishes the 
importance of the West?
    And I think a litmus test for this will be whether or not 
Turkey is sincere about moving its agreement with Armenia 
forward. After having raised such high expectations, and 
knowing the import of this issue in the United States if that 
deal falls through, it will have serious repercussions in 
United States-Turkish relations.
    Mr. Wexler. Thank you, and I will turn to Dr. Flanagan, but 
if maybe I can just ask a follow up to you, Dr. Flanagan, in 
the context of Mr. Phillips' remarks. In the analysis of any 
nation, but applying it to Turkey, why is it that we should 
conclude that a view by another nation that isn't traditionally 
just westward--a view that is both westward and eastward--why 
do we view that as somehow a negative or a loss to America? Why 
isn't that, potentially in the case of a NATO ally with 
incredibly strong relations, military, strategic and otherwise 
for decades, why isn't that viewed here as a positive? Please, 
Dr. Flanagan.
    Mr. Flanagan. Yes, I have an answer for that, Mr. Chairman, 
and Mr. Gallegly, welcome.
    I think you are absolutely right, Mr. Chairman. I think it 
is not a net negative that Turkey has this position, and now 
with the move of Dr. Davutoglu into the foreign ministry, he is 
the architect of this strategy, of zero problems, of Turkey's 
engagement with all of its neighbors in an effective way and 
this approach will continue. I think there is utility to the 
fact that Turkey has tried to pursue through both its soft 
power influences Dr. Lesser alluded to, and other aspects of 
its really remarkable diplomatic engagement in the region. I 
think Turkey has been trying to show that it can be a conduit 
and be helpful to us, and its ability to talk to some parties, 
including Hamas, including Syria, and even Iran, the countries 
that we can't and don't want to talk to directly. I accept the 
notion that Turkey could be an intermediary in developing U.S. 
engagement with these countries. I think it has proven its 
value in brokering the Syria-Israel indirect talks. Indeed a 
lot of Prime Minister Erdogan's discontent and dismay with 
Israel related to the fact that they themselves, the Turkish 
Government, and I have talked to a number of senior officials, 
felt that they were really on the verge of moving those to 
direct talks on the eve of the Gaza war. It was really partly 
dismay and disappointment that they felt they were so close 
that led to some of Erdogan's behavior which certainly was 
disappointing at Davos. But I think it reflected the sense that 
Turkey felt that they could be an effective interlocutor and 
help advance the process.
    Now, I think it is also possible to overstate Turkey's 
influence in the region. It has shown its ability to open some 
doors to begin a quiet dialogue. We saw, even at the end of the 
last administration, Under Secretary Burns was beginning to 
look at further discussions with Iran about both the nuclear 
question and perhaps establishment of an interest section. 
Turkey was engaged, I think, again, Turkey could play a role in 
part of this opening to Iran. But I think it is a part of this 
effort that will have to be carefully managed to be sure that 
we don't have conflicting strategies. I think it is more about 
tactics and sequencing, about how can we effectively channel 
Turkish engagement and relationships into supporting our 
broader interests and to working also, obviously, when we get 
to the peace process with the EU Quartet and others working to 
advance these interests in the Middle East.
    But I think that Turkey's value in its ability to be an 
interlocutor is something that we should take and move forward 
in utilizing in advancing our own interests.
    Mr. Wexler. Thank you. At this time I would recognize the 
ranking member, Congressman Elton Gallegly of California. I 
believe Mr. Gallegly is going to submit his statement for the 
record, and I will allow him to do as he chooses.
    Mr. Gallegly. Thank you very much, Mr. Chairman, and with 
the interest in time I would ask unanimous consent to submit my 
opening statement for the record, and I apologize for being a 
little late today. It has been kind of a challenging day with 
the floor votes and other committee markups and so on.
    [The prepared statement of Mr. Gallegly follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Gallegly. Mr. Phillips, could you kind of give us an 
assessment of how you would describe the current relations 
today between Turkey and Iran at this time?
    Mr. Phillips. To second Dr. Flanagan's remarks?
    Mr. Gallegly. Yes.
    Mr. Phillips. Turkey has an important role to play through 
its Eurasia strategy when Turkey's national interests and 
United States national interests overlap. We should emphasize 
cooperation with Turkey, but we have to recognize that that 
overlap will not be consistent or occur at all times. So our 
own interests and our own dialogue with Iran, either directly 
or through intermediaries, have to be based on decisions that 
are made in Washington with guidance from allies like Turkey, 
but we should not subcontract our rapprochement to other 
countries, to Turkey or any other nation.
    Mr. Gallegly. Can you give us with any level of specificity 
the efforts Turkey is making to encourage Iran to comply with 
the IAEA and to abandon their uranium enrichment programs?
    Mr. Phillips. I am not privileged to the details of those 
discussions, but I think that the strategy that has been 
articulated is the right strategy. Iran needs to understand 
that there are rewards if it complies with the Security 
Council's will on these matters. If it does not comply, it 
equally needs to know that there are strong penalties. If 
Turkey wants to carry that message to Iran, it certainly would 
be a suitable interlocutor. There are other countries that can 
do that as well, but I think the important point here is that 
we need to stick to an approach that involves carrots and 
sticks, and the Iranians need to know very clearly where they 
stand, what kinds of penalties will be incurred, and what kinds 
of rewards they might benefit from if they comply with the 
Security Council's resolutions.
    Mr. Gallegly. How does Turkey view the prospect of their 
neighbor being a nuclear-armed country?
    Mr. Phillips. With deep trepidation and fear. I would say 
that across the Sunni Muslim world the concern about an 
ascendant Shia crescent is a serious one. The idea that Iran 
would cross the nuclear threshold and weaponize its nuclear 
program has to be of enormous concern to the United States, to 
Israel, and to all of our allies in the Middle East, including 
Turkey.
    Mr. Gallegly. Dr. Flanagan, on another issue, what has 
Turkey's approach been to the renewed talks on Cyprus?
    Mr. Flanagan. Well, Mr. Gallegly, we have yet to see truly 
a new approach or a fresh approach from Ankara on the Cyprus 
issue. I think really the weight of activity is between the two 
communities right now, and my general assessment is that the 
prospects are as good as they have been really since the 2004 
Annan Plan. The relationship between President Christofias and 
Mr. Talat in the north are very good. They are kindred spirits 
ideologically. They have had a good dynamic personally, but yet 
it is disappointing that after several months of discussions 
there are important differences that still remain over power 
sharing and property rights which is a particularly difficult 
issue.
    So I do think that we are at an important stage in these 
discussions. I think where both the United States and the 
European Union could be helpful to the two communities on the 
island is working with the U.N. Special Envoy Alexander Downer. 
I had the opportunity to participate in a round table with him 
in New York 1\1/2\ weeks ago, and I do think that we are at a 
critical stage particularly in regard to the EU timetable where 
there will be a review of commitments that Turkey has made to 
move toward normalization of relations with the Republic of 
Cyprus, opening its ports and airports under the so-called 
Ankara Protocol, that will come up during the Swedish 
Presidency later this year.
    So I think it will be an important test case for Turkey and 
this government in Turkey which has recently lost some support 
in their municipal elections. I think it is going to be a hard 
issue for them to take on. However, it will be a test of their 
good faith and commitment to the U.S. process to show that they 
are willing to move forward on this commitment. But I think 
they are in close consultation with Mr. Talat from what I can 
see on the outside, that Ankara is working closely with him. 
However, Mr. Talat has his own constituency, and the Turkish 
Cypriots recently had local elections where the nationalist 
party has gained strength. He is still the key interlocutor 
with the Greek Cypriots, President Talat of the Northern 
Republic of Cyprus. It is still going to be a difficult set of 
negotiations, but I do think that it would be helpful if both 
the United States and the EU could work with the parties and to 
provide some ideas and perspectives that might help them move 
forward on some of the issues that have been so vexing over the 
years between the two communities.
    Mr. Gallegly. Well, I spent several days in Nicosia a 
little over a year ago and one of the things that I came away 
from--I am not sure I was quite as encouraged although I heard 
all of the same things basically that you are saying.
    One thing that I would say, Mr. Chairman, is that Nicosia 
and Cyprus is not one of the normal codel hotspots for us to 
travel to, and I think it is a little off the beaten path--not 
too many of our folks travel there, and I would encourage our 
folks to do that. I think it sends a message that we have not 
forgotten its importance and the strategic aspect. And I hope I 
will become more encouraged as time moves on, but I am not yet. 
If any of you would like to follow up.
    Mr. Flanagan. I did not mean to suggest that I was overly 
optimistic, and Dr. Lesser has looked at this very closely as 
well, so he may want to comment on this. I think that the 
correlation of political forces are generally positive, but 
there are still some hard issues. But, I do think that the hope 
is perhaps some of this pressure, particularly with the EU 
deadline approaching, that could provide some incentives.
    I think that external parties could also provide some 
additional incentives to both communities on the island to move 
forward. One thing that we haven't mentioned is this issue is 
really impeding important elements of not only Turkey's 
advancement of its engagement and integration into the European 
Union, but also, and more importantly from United States 
interests, it is really holding up the development of NATO-EU 
cooperation. Because Turkey is using this as a lever. The fact 
that as NATO tries to develop, and this relates to activities 
in Afghanistan and the Balkans, Turkey has held up aspects of 
NATO-EU cooperation because it is the one lever that it has to 
express its concern that Cyprus shouldn't have sort of a back 
door to NATO assets and NATO cooperation until Turkey is 
allowed to have a fuller relationship with the EU, and also to 
move forward on some of its other engagement with Europe.
    So, it is a complicated web of relations, but it has some 
real impact on important security interest in the United States 
as well.
    Mr. Gallegly. Mr. Chairman, I know my time has expired but 
maybe we could have a response from Dr. Lesser on that and get 
his perspective.
    Mr. Lesser. Congressman Gallegly, Mr. Chairman, actually I 
agree very much with my colleague, Dr. Flanagan, about this. I 
think his comments are exactly right. I would just add that 
from an American interest point of view we need to keep in mind 
the extent to which our stake in the unresolved Cyprus question 
has changed in the past years.
    Ten years ago, this would have been a discussion about 
security and crisis management. Now it is a discussion about an 
unresolved political dispute. That is a big difference, but I 
think, as Dr. Flanagan rightly says, that unresolved political 
dispute has some real strategic meaning for us because it 
impedes where Turkey can go with the European Union, not just 
in the near-term, but also ultimately. Ultimately Turkey is 
going to have to recognize all the members to join the EU. I 
mean, at the end of the day that is going to have to happen, so 
there has to be some resolution if Turkey's candidacy is going 
to be put back on track. It is meaningful to us from the NATO 
perspective as well, as has been mentioned.
    I very much agree that one of the most encouraging things 
is that, on the island itself, between the two communities, 
there really is a much better climate today than there was in 
past years. You can go back and forth across the green line and 
make visits. There have been hundreds of thousands, maybe 1 
million visits across the green line, I believe without any 
incident, any violent incident. This is a remarkable thing.
    So, we need to keep our eye on the fact that this is 
something that has gotten better, and it has gotten better in 
part because there has been European and off again/on again 
American attention to the problem over the years. Thank you.
    Mr. Wexler. Mr. Phillips.
    Mr. Phillips. Just as there are opportunities if there is a 
resolution and settlement in Cyprus, there are also costs if 
there is no resolution. There will be a year-end review of 
Turkey's candidacy. We know that there are countries in Europe 
that strongly oppose Turkey's candidacy and have proposed a 
special partnership instead. The chapters of the ``alcquis'' 
that have not been opened will not be opened anytime soon. 
However, Turkey's accession prospects can be positively 
affected if there is movement on Cyprus. Its movement forward 
can also be stalled if in fact there is a breakdown of talks on 
Cyprus. The Swedish presidency has an important job ahead of it 
in these next 6 months.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Mr. Wexler. Thank you. Mr. McMahon of New York.
    Mr. McMahon. Thank you, Mr. Chairman, and thank you to 
these great witnesses for sharing their insights on these very 
important issues in and around Turkey.
    I want to just pick up a little bit with what the ranking 
member was talking about, the issue of Cyprus, because as I 
said in my opening statement it is so important to me, maybe 
because my last name is McMahon and I am an Irishman, but that 
we resolve that issue. It is important to the people of Cyprus, 
and then also is for Turkey. It is, as you have all noted, a 
great hindrance in its accession to the EU.
    So what I would like to do is talk a little bit more 
specifically about what you think can be done. I mean, we have 
a situation now where the troops of Turkey have been there for 
many years, since 1974, yet across the border crossing as you 
have mentioned, Doctor, have gone very peacefully.
    What role should the United States play to focus attention 
on this issue? For instance, should we suggest to our friends 
in Turkey that they draw down the number of troops that are on 
the island? Would that be a first good step? And what specific 
steps should we be promoting?
    Mr. Lesser. Congressman, shall I----
    Mr. McMahon. Please.
    Mr. Lesser. Thank you for the question. Well, I think there 
are a number of things that we can do, but I think as a basic 
principle we ought to bear in mind that whatever we do, on this 
we ought to view as a transatlantic strategy. We ought to be 
doing it with Europe. We ought to be doing it with EU 
leadership, because that is really the key context for 
resolution.
    If Turkey still believed that its prospects for membership 
in the European Union were positive, I think it would be much 
easier to do the sort of things you mention, which would be 
perhaps to draw down some of the military presence on the 
island, to put new confidence-building measures in place, to 
have the United States take some actions as the Turks are 
always pressing us to do, to end or limit, as they see it, the 
economic isolation of Northern Cyprus.
    There are some things we could do. They would be very 
symbolic because we are not in a position to have heavy trade 
with Northern Cyprus. But whatever we do, we ought to do it, I 
think, in full coordination with the European Union because 
that is really where the leverage is. The action on this is no 
longer, I would say, in Washington as it might have been in 
previous decades. It is really in Brussels, it is in the U.N. 
to an extent, and it is on the island above all.
    One thing that I was part of not too long ago, which I 
thought was enormously useful, which the U.S. Embassy in 
Nicosia put together, they have a series of activities that 
they sponsor, inter-communal activities of all kinds. The one I 
was part of was actually a journalists meeting that included 
Greeks and Turks from their respective countries, and they were 
not talking about Cyprus per se. This was the important thing. 
They were talking about regional issues in the eastern 
Mediterranean, but leaving aside the Cyprus problem.
    I think there is something very useful there, not only 
because it brings people together, but also because it shifts 
the whole debate onto bigger issues where Cypriots on both 
sides of the island have a stake. They were, for example, very 
heavily affected by the refugee flows after the conflict in 
Lebanon not long ago.
    There are environmental issues, maritime security issues, a 
whole host of things that we could be working on with both 
communities on Cyprus that aren't necessarily always about the 
resolution of their own problem. Thank you.
    Mr. McMahon. Thank you. Do you think the drawing down of 
troops would be a significant step in the right direction?
    Mr. Lesser. I do. I am not optimist about the mood to do 
that in Ankara at the moment, but I do. I would also tell you 
that there are sectors inside Turkish society, especially the 
business community, who recognize that there are costs to 
having the situation unresolved. Thank you.
    Mr. McMahon. Thank you. I just want to with my remaining 
time just sort of follow up regarding the joining of the EU by 
Turkey. Do any of you think there is credibility to the 
argument that the EU's hesitancy, other than--and I think 
Cyprus is clearly a flash point, but also the hesitancy toward 
Turkey membership may be based on an inherent bias of certain 
EU countries, and if so, how do we deal with that treatment 
toward an ally?
    Mr. Phillips. Of course, there is an inherent bias. There 
is also a touch of racism that exists in Europe that we have to 
acknowledge. The Europeans, particularly the Northern 
Europeans, talk about the Christian Club of the EU. They are 
averse to letting Turkey, a majority Muslim country, come in. I 
think what the Europeans have to recognize is that Europe 
already has a significant Muslim minority, and if Turkey is 
treated with disrespect, if the goal posts are shifted, Muslims 
within those European countries will become increasingly 
agitated.
    Mr. McMahon, if I could return to just your earlier 
question on Cyprus. We have to acknowledge that Turkey has 
played such an important role in bridging differences. There 
was a big surprise that it was the Greek Cypriots who rejected 
the Annan plan in 2005, but they will be blamed if there is no 
progress in the next 6 months precisely by those European 
countries that are looking to find fault with Turkey.
    One way to cushion that criticism is for Turkey to move 
ahead and open its ports to Cypriot flag ships just as a 
demonstration of goodwill. That will diminish some of the 
negative blow-back from European countries who would look to 
blame Turkey for a problem which in fact Turkey is playing a 
salutatory role in.
    Mr. McMahon. But certainly even though the role is so 
important, clearly the fact that their troops remain on the 
island it makes progress and if I am a Cypriot in an island and 
someone--there are troops there from what I consider a 
different nation, that makes it hard to agree to any type of 
long-term agreement as long as the troops are there.
    Mr. Phillips. And that is certainly the case, but as Ian 
pointed out there is no appetite in Ankara for pulling those 
troops back. If we could rotate NATO forces in, that would be 
an option, but NATO is already overstretched. We can agree on 
the desirability of reducing the troop presence, but we have to 
live within the realities of what Ankara will bear and what is 
possible for NATO.
    Mr. McMahon. Thank you, Mr. Chairman.
    Mr. Wexler. Thank you. I am going to follow up if I could 
with Mr. Gallegly's indulgence. First, just an observation, and 
I don't want to jinx anything, but we have already accomplished 
a great deal here today in that we have had a subcommittee 
meeting on Turkey, and we have had a sober, thoughtful, 
rational, logical discussion, and I am deeply grateful to 
everyone for that.
    One observation with respect to Turkish-Israeli relations, 
and I certainly have at times expressed my disagreement and 
dismay, but I think it would be remiss if we allowed the 
discussion to end without the observation that despite the 
harsh words and despite the tension, particularly at the 
beginning of the year, Israeli-Turkish relations remain not 
only in tact, but strong, and the fundamentals of the 
relationship appear to be as they were before the Gaza 
operation. Undoubtedly people are talking and wondering, but 
the fundamentals and the efforts to which many people in the 
Turkish Foreign Ministry, the President of Turkey, and others 
have gone to both secure and maintain that relationship I think 
is noteworthy, and it would not be a complete record if we did 
not recognize that.
    I would like to just start maybe with Dr. Flanagan and go 
the other way and ask you to comment on two remaining issues.
    The European Union: President Obama made a very strong 
statement consistent with President Bush and consistent with 
many Members of Congress in terms of support and encouragement 
for Turkey's entry into the European Union. What can the United 
States do now to further advance that cause?
    Two, with respect to energy, what role can the United 
States play in terms of Turkey's pivotal situation as a transit 
hub for energy resources?
    And particularly to you, Dr. Flanagan, if I could just ask 
you why in your third set of categories, those set of 
categories where you said there are significant policy 
differences, why did you list halting Iran's nuclear program in 
that category?
    Mr. Flanagan. Thank you. It's a long list but I will try to 
touch on each of them, and if I could just also make a quick 
comment on your comment about Turkish-Israeli relations.
    I fully agree with you, Mr. Chairman, that I think that 
actually there is no agreement between Turkey and Israel that 
has been set aside as a result of the outrage that was being 
expressed by both the Turkish public and the Turkish leadership 
about the Gaza operation, and in fact even at the height of it 
the Turks were quick to point out that the Israeli Air Force 
was still training in Konya, and the kind of military to 
military and other official cooperation goes on.
    That said, I do think there is some concern growing in 
Israel and what we found in our investigation in talking with 
Israeli officials, there is some concern about how as Turkey 
deepens its ties with some countries that Israel still sees as 
very hostile to it, will Turkey equivocate on some questions, 
and will it be quite as strong a supporter of Israel as some 
tough questions come to the fore, and one of them, to get to 
your point, is about the whole question of Iranian nuclear 
weapons, which obviously is seen in Israel as an existential 
threat to Israel's very existence.
    I do not think that is quite the Turkish assessment. I do 
fully agree with the comments that were made earlier that 
Turkey does see development of Iranian nuclear capabilities and 
Iranian homogeny in the region as inimical to its long-term 
interests. That said, I think the Turkish leadership very much 
fears the eruption of a confrontational relationship with Iran. 
Again in keeping with the zero problems approach, I think they 
very much are hoping that diplomacy and carrots and sticks can 
still achieve the goal of giving Iran the perspective that by 
giving up nuclear weapons or at least putting its program under 
full-scope safeguards that it will achieve some other benefits. 
And so I think it will be an important bell-weather this year 
as we watch Turkey as a member of the Security Council if the 
diplomatic track in Iran slows down a bit, and looks like it is 
not moving forward, and of course we will see more after the 
Iranian Presidential elections. What is Turkey willing to do on 
the stick side of this so-called carrot and sticks approach. 
That will be, I think, a bell-weather of Turkey's intent.
    Moving back then on the energy bridge, I think that the 
U.S. can do a great deal to help both the government and 
working with private industry to create the context. Turkey has 
a major role to play in energy transit, but it has had mixed 
success and experience, frankly, in dealing with this. Some of 
this has to do with internal Turkish policies and the way the 
Turkish energy industry is structured, these para-statal firms 
like BOTAS and others that have some visions of being both not 
just a transit route but an accumulator.
    So Turkey has to be a bit more transparent and open in the 
way it conducts the management of its energy programs and 
capabilities, but it is certainly true that Turkey has 
committed to advancing a number of these projects that both the 
so-called--the Nabucco project but other aspects that are part 
of a southern route to bring Caspian energy from both sides of 
the Caspian, on the Azari side and on the far side, on the 
Turkmen side to Europe and other parts of the international 
market.
    I think the administration should work closely with the 
Turks on energy issues. The appointment of Ambassador 
Morningstar back to his old position as coordinator for 
Eurasian Energy was a good move. It will help us to be able to 
work with some of the European governments and with industry to 
find a realistic set of goals, and what we recommended in our 
report was to focus on some short-term and maybe less ambitious 
projects that can give investors confidence such as moving the 
Greek-Turkey interconnector in gas and some other shorter 
pipelines. Such incremental steps can give investors confidence 
that there is this emerging route, this southern corridor that 
could be quite productive and valuable to diversification, and 
giving Europe a route of gas that is independent of Russian 
transit.
    And lastly, on the EU, I think the best thing that the 
United States can do is quiet diplomacy, continuing to be firm 
and encouraging the European proponents of Turkish membership 
to move on, to keep opening, trying to open a couple of 
chapters each presidency, and to really engage with the EU, as 
Dr. Lesser suggested, on the Cyprus question. I think in many 
ways the key to advancing Turkey's membership in the EU is 
through further progress on Cyprus, and once there is some 
movement there a number of other things will open.
    Mr. Phillips. Turkey's EU prospects will largely be defined 
by how it deals with the identity of Kurds in Turkey. We should 
applaud Turkey for having launched 24/7 Turkish language 
broadcasts on TRT-6. The fact that Tayyip Erdogan opened the 
station on January 1 with a salutation in Kurdish broke a lot 
of taboos. He demonstrated Turkey's commitment toward meeting 
the Copenhagen criteria.
    If there is anything that the United States can do to 
continue to build on this momentum, it is to make the point 
very clearly that solving the PKK problem has to be based not 
only on military action, but also on Turkey's continued 
democratization and development. There are some specific laws 
and constitutional measures that Turkey needs to address if it 
is going to be able to make a compelling and coherent case to 
the EU.
    It needs to eliminate the item in the Constitution that 
defines citizenship based on Turkishness. It needs to get rid 
of Article 301 of the penal code which makes it an insult for--
which makes it an actionable offense to insult Turkishness, and 
also Article 8 of the Anti-terror Act which is applied to crack 
down on free speech. If Turkey were to take steps to address 
those constitutional and statutory problems, its relations with 
Europe would be greatly improved. I think we can have the kind 
of conversation with the Turks that would be important in 
Ankara.
    On the subject of energy, there is a link between Eurasia 
energy supplies and new energy streams coming online from Iraq. 
Europe is held hostage by Russian gas. Nabucco moving forward 
is critically important, but if Nabucco is going to be 
profitable it needs to be augmented by energy supplies coming 
from Iraq. There are considerable natural gas fields east of 
Sulaymania, and bringing those online and involving Turkish 
enterprises would strengthen Turkey's position. It would 
enhance Turkey's energy security as well as Europe's. It also 
speaks to the broader question of relations between Turkey and 
the Kurdistan Regional Government.
    Over the past year there have been direct contacts between 
officials from the two. There has been a lot of progress. Heads 
of government from both have visited. Turkey has initiated this 
contact and deserves commendation for its leadership, but 
Northern Iraq still remains very volatile. As we redeploy from 
Iraq, the likely bump in the road is going to be around Kirkuk 
and implementation of Article 140 in the Iraqi Constitution. If 
the Kurds without their protector insists on pushing ahead to 
have Kirkuk join the KRG, Turkey may react militarily. The PKK 
may adventure around that, and we could see a conflagration 
involving Turkish troops coming across the border. There is no 
bigger deal-breaker in Europe than Turkey getting militarily 
engaged in Northern Iraq, and crossing swords with the Iraqi 
Kurds. So United States diplomacy here is especially important, 
particularly given our strong relationship with the KRG and 
with Turkey.
    Mr. Wexler. Dr. Lesser.
    Mr. Lesser. Thank you, Mr. Chairman. On these two issues I 
would say first on the EU and U.S. policy. You know, we have 
been such staunch supporters of Turkey's candidacy, and it is 
absolutely right, and it is right that the President reiterated 
that on his trip. I would just stress again that I think we 
need to start making this argument in some different ways.
    It is very clear that as Turkey's candidacy has progressed, 
just making a broad-gauged strategic argument about anchoring 
Turkey and why it matters, looking at the map, et cetera, it 
doesn't take us far enough and it does meet European 
resistance.
    Will that resistance be less if transatlantic relations 
improve in the next years? Possibly. But if you look at 
President Sarkozy's reaction to President Obama's statements in 
Ankara, it is not so clear. So I think we need to make the 
argument in a different way.
    I think part of that is talking not so much about geo-
politics, but about specific issues where Europe, the United 
States and Turkey play. It could be energy, it could be 
environment, it could be responses to the global economic 
crisis. There are a lot of different areas where we could 
change the geometry and not just talk about what the EU should 
be doing with Turkey, or vice-versa, but actually where we have 
common interests, and it builds a constituency. I think it is 
valid to approach it that way because this is not something 
that is going to play out in a year or 2. This is a 10- or 15-
year project which I think Turks and Europeans often forget, 
but it is a 10- or 15-year project, and I think it is as much 
about not just what Turkey looks like in 10 or 15 years, the 
foreign issues which are also very important, but also what the 
EU looks like.
    If the EU in 10 or 15 years is a looser place with 
different speeds and different circles, et cetera, Turkey is 
obviously going to fit in a different way. So there are a lot 
of different moving pieces. I think our priority in the 
meantime ought to be making a much more detailed argument and 
having a much more detailed dialogue with constituencies with a 
stake on specific issues, not just the geo-political argument.
    On energy, I agree with what has already been said. I would 
also just add that there are complex cross-cutting interests in 
Turkey. We would like to think of Turkey as an alternative to 
over-reliance on Russian routes, and it can be, of course, 
looking at the map again. But, of course, Turkey has its own 
complicated debate about this, because there are a lot of 
commercial interests in Turkey, some in the energy sector, but 
some in other sectors, bound up in a close relationship with 
Russia. Russia is now Turkey's largest trading partner, 
economic partner across the board. So it is complicated when 
you go and talk to the Turks about this.
    It is worth noting that the Iraqi piece of this is just as 
important as the Eurasian piece. The existing capacity of the 
pipelines that are longstanding across Turkey to bring Iraqi 
oil to the Mediterranean are actually twice the capacity of the 
Baku-Tblisi line, roughly. So this is a big, a big issue and a 
big contributor to Turkey's own energy security requirements. 
To the extent that we are an arbiter in terms of Iraqi security 
so they can actually export these supplies through Turkish 
pipelines, that is going to be very, very important to Turkey.
    I would just finish by saying that for Turks this is very 
much bound up with their own thinking about the relationship 
with Russia, which has historically been very wary. But also, 
this wariness extends to the idea that NATO and the United 
States are entering a period of increased confrontation, 
competition with Russia, which also would not serve Turkish 
interests. Thank you, Mr. Chairman.
    Mr. Wexler. Thank you again to the three witnesses for your 
exceptionally thoughtful and sober discussion. I want to note 
that you have been with us for a little bit more than 2\1/2\ 
hours, so you have been extremely generous with your time. I 
would like to give Mr. Gallegly or Mr. Boozman the opportunity 
for the last word if they wish.
    Mr. Gallegly. Thank you, Mr. Chairman, I want to thank the 
chairman for calling this hearing. Thank you for all your 
testimony this morning. Of course, I join the chairman in 
apologizing for the break for an hour plus with voting. 
Unfortunately, there are certain things around here we don't 
have a tremendous amount of control over, but we do appreciate 
and recognize the time that you dedicated while we were off 
doing other things. But thank you for being here today, and we 
will stay engaged.
    Thank you, Mr. Chairman.
    Mr. Wexler. Thank you. Mr. Boozman.
    Mr. Boozman. Well, I would just like to thank you and the 
ranking member for having the hearing. I apologize for not 
being here except at the last few minutes. Again, the schedule 
circumstances caused that, so thank you very much, and it is a 
very, very important subject that we are all very concerned 
about.
    Mr. Wexler. Thank you, and thank you for your attendance. 
Gentlemen, thank you very much. We are adjourned.
    [Whereupon, at 1:01 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Minutes deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>FTR1--Costa QFRs deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Lesser response to Costa deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Phillips response to Costa deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>FTR2--Wilson QFRs deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Lesser response to Wilson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Phillips response to Wilson (plus cite) deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: The additional information submitted for the record, 
``Confidence Building Between Turks and Iraqi Kurds,'' dated June 2009 
by Mr. David L. Phillips, is not reprinted here but is available in 
committee records.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
